Case: 19-20468

Document: 00515609181

Page: 1

Date Filed: 10/20/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-20468

FILED
October 20, 2020
Lyle W. Cayce
Clerk

CARL EDMOND YANCY,
Petitioner-Appellant
v.

BOBBY LUMPKIN, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent-Appellee.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:17-CV-3593

Before HIGGINBOTHAM, SOUTHWICK, and WILLETT, Circuit Judges.
PER CURIAM:*
A jury convicted Carl Edmond Yancy, Texas prisoner # 1842638, of
aggravated sexual assault of a child under the age of 14. He was sentenced to
45 years in prison.

He requests a certificate of appealability (COA). The

district court dismissed Yancy’s 28 U.S.C. § 2254 petition as time barred.
Yancy also moves for leave to proceed in forma pauperis (IFP) on appeal.

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

Case: 19-20468

Document: 00515609181

Page: 2

Date Filed: 10/20/2020

No. 19-20468
This court must consider its jurisdiction sua sponte when necessary.
Mosley v. Cozby, 813 F.2d 659, 660 (5th Cir. 1987). The filing of a timely “notice
of appeal in a civil case is a jurisdictional requirement,” and an appeal that has
not been made within statutory time limits must be dismissed for lack of
jurisdiction.

Bowles v. Russell, 551 U.S. 205, 213-14 (2007); Hamer v.

Neighborhood Hous. Servs., 138 S. Ct. 13, 17 (2017); 28 U.S.C. § 2107(a).
Proceedings under § 2254 are civil. See Hernandez v. Thaler, 630 F.3d 420,
424 (5th Cir. 2011). Where, as here, the United States is not party, the notice
of appeal in a civil case must be filed within 30 days after the entry of the
judgment or order being appealed. Fed. R. App. P. 4(a)(1)(A). Yancy filed a
notice of appeal more than a year after the dismissal of the § 2254 petition.
Because the notice of appeal is untimely, the appeal is DISMISSED for lack of
jurisdiction. See Bowles, 551 U.S. at 213. The motions for a COA and for leave
to proceed IFP are DENIED.

2

Case 4:17-cv-03593 Document 12 Filed on 03/08/18 in TXSD Page lot 5
United States District Court
Southern District of Texas

ENTERED
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CARL EDMUND YANCY,
Petitioner,
v.
LORIE DAVIS,
Respondent.

§
§
§
§
§
§
§
§
§

March 09, 2018
David J. Bradley, Clerk

CIVIL ACTION No. H-17-3593

MEMORANDUM OPINION AND ORDER
Petitioner, a state inmate proceeding pro se, filed this section 2254 habeas petition
challenging his conviction for aggravated sexual assault of a child under the age of fourteen.
On January 24, 2018, respondent filed a motion for summary judgment premised on
expiration of limitations and served petitioner a copy at his address of record. (Docket Entry
No. 9.) Despite expiration of a reasonable period of time of approximately forty-five days,
petitioner has failed to respond to the motion, and the motion is uncontested.
Having considered the motion, the record, and the applicable law, the Court GRANTS
the motion for summary judgment and DISMISSES this lawsuit for the reasons that follow.
I. Background and Claims
Petitioner was convicted of aggravated sexual assault of a child under the age of
fourteen and was sentenced to forty-five years incarceration on February 25, 2013. The
conviction was affirmed on appeal on July 24, 2014, Yancyv. State, No. 01-13-00168-CR,
2014 WL 3697813 (Tex. App. - Houston [1st Dist.] 2014), and discretionary review was

Case 4:17-cv-03593 Document 12 Filed on 03/08/18 in TXSD Page 2 of 5

refused on February 11,2015. Petitioner’s motion to reconsider, filed on June 12,2015, was
denied on June 19, 2015. Petitioner’s application for state habeas relief, filed with the trial
court on December 1,2015, was denied by the Texas Court of Criminal Appeals on February
15,2017.
Petitioner filed the instant federal habeas petition no earlier than November 17,2017.
Respondent seeks dismissal of the petition as barred by the applicable one-year limitation.
II. Analysis

This petition is governed by provisions of the Antiterrorism and Effective Death
Penalty Act of 1996 (AEDPA). Under AEDPA, federal habeas corpus petitions are subject
to a one-year limitations period found in 28 U.S.C. § 2244(d), which provides as follows:
(d)(1) A 1 -year period of limitations shall apply to an application for a writ of
habeas corpus by a person in custody pursuant to the judgment of a
State court. The limitation period shall run from the latest of(A)

the date on which the judgment became final by the conclusion
of direct review or the expiration of the time for seeking such
review;

(B)

the date on which the impediment to filing an application
created by State action in violation of the Constitution or laws
of the United States is removed, if the applicant was prevented
from filing by such State action;

(C)

the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly
recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or

2

Case 4:17-cv-03593 Document 12 Filed on 03/08/18 in TXSD Page 3 of 5

(D)

(2)

the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of
due diligence.

The time during which a properly filed application for State
post-conviction or other collateral review with respect to the pertinent
judgment or claim is pending shall not be counted toward any period of
limitation under this subsection.

28 U.S.C. §§ 2244(d)(1)—(2).
Federal limitations commenced in petitioner’s case on “the date on which the
judgment became final by the conclusion of direct review or the expiration of the time for
seeking such review.” 28 U.S.C. § 2244(d)(1)(A). Petitioner’s conviction became final on
May 12, 2015, when the period for timely filing a petition for writ of certiorari with the
Supreme Court expired. See Roberts v. Cockrell, 319 F.3d 690,693—95 (5th Cir. 2003); SUP.
Ct. R. 13.1 (providing that a petition for a writ of certiorari to review a judgment entered by
a state court of last resort is timely when it is filed within 90 days after entry of the
judgment). Thus, limitations expired in petitioner’s case one year later, on May 12, 2016,
absent statutory tolling.
AEDPA provides that “the time during which a properly filed application for State
post-conviction or other collateral review with respect to the pertinent judgment or claim is
pending shall not be counted toward any period of limitation under this section.” 28 U.S.C.
§ 2244(d)(2). The state record shows that petitioner filed a state application for writ of
mandamus in August 2013; the application, however, did not toll limitations because it was
not an application for collateral review. See Moore v. Cain, 298 F.3d 361 (5th Cir. 2002)
3

Case 4:17-cv-03593 Document 12 Filed on 03/08/18 in TXSD Page 4 of 5

(holding that mandamus applications do not toll the limitations period). Petitioner’s relevant
application for state habeas relief, filed on December 1, 2015, and denied on February 15,
2017, tolled federal limitations for 443 days. His motion for rehearing as to the denial of
discretionary review tolled limitations for an additional eight days. See Lookingbill v.
Cockrell, 293 F.3d 256, 263 (5th Cir. 2002). Consequently, petitioner’s federal habeas
petition was due August 6, 2017, and the instant petition is untimely by over three months.
The claims presented by petitioner do not concern a constitutional right recognized
by the Supreme Court within the last year and made retroactive to cases on collateral review.
Nor does the record reflect any unconstitutional state action that prevented petitioner from
timely filing for federal habeas relief.

Moreover, petitioner’s habeas claims were

discoverable by the time his conviction became final on May 12, 2015, and no grounds for
application of equitable tolling are alleged or apparent.
Although petitioner asserts a claim for “actual innocence,” it provides him no
limitations benefit. In McQuiggen v. Perkins, 569 U.S. 383 (2013), the Supreme Court held
that tenable claims of actual innocence serve as a gateway through which the petitioner may
pass, allowing his underlying constitutional claims to be considered despite being raised
outside the AEDPA limitations period. Id. at 386. However, tenable actual innocence
gateway pleas are rare. A petitioner must bring forward new, reliable evidence of his
innocence. “[A] petitioner does not meet the threshold requirement unless he persuades the
district court that, in light of the new evidence, no juror, acting reasonably, would have voted

4

Case 4:17-cv-03593 Document 12 Filed on 03/08/18 in TXSD Page 5 of 5

to find him guilty beyond a reasonable doubt.” Id. See also Schlup v. Delo, 513 U.S. 298,
329 (1995). In this context, newly-discovered evidence of a petitioner’s actual innocence
refers to factual innocence, not legal insufficiency. Bousely v. United States, 523 U.S. 614,
623-24 (1998). Petitioner presents no newly-discovered evidence proving his actual
innocence. To the contrary, he argues that the evidence produced at trial proved he was not
guilty of the charges. No tenable gateway claim of actual innocence is raised, and
petitioner’s assertions of actual innocence provide him no basis for surmounting the
limitations bar.
Respondent is entitled to summary judgment dismissal ofpetitioner’s claims as barred
by limitations.
III. Conclusion
Respondent’s motion for summary judgment (Docket Entry No. 9) is GRANTED and
this case is DISMISSED WITH PREJUDICE as barred by the AEDPA one-year statute
of limitations. Any and all pending motions are DENIED AS MOOT. A certificate of
appealability is DENIED.
&

Signed at Houston, Texas, on this the

of March, 2018.

KEITH P/ELLISON
UNITED STATES DISTRICT JUDGE

5

Additional material
from this filing is
available in the
Clerk's Office.

